WAIVER
SUPREME COURT OF THE UNITED STATES
No. 20-1035
In re: Jody D. Kimbrell v. Cook County Clerk Karen Yarbrough, et al.
(Petitioner)
(Respondent)
I DO NOT INTEND TO FILE A RESPONSE to the emergency petition for writ of mandamus unless one is
requested by the Court.
Please check one of the following boxes:
[]

Please enter my appearance as Counsel of Record for all respondents.

[x]

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Cook County Clerk Karen Yarbrough; Jessica Megan Scheller
Please check the appropriate box:
[x] I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a signed Waiver in
the Supreme Court Electronic Filing System. The system will prompt you to enter your appearance first.)
[ ] I am not presently a member of the Bar of this Court. Should a response be requested, the response will be filed by a
Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court, attn: Clerk’s Office, 1 First Street,
NE, Washington, D.C. 20543).
Signature:

Date:

March 1, 2021

Name:

Jessica M. Scheller
[ ] Mr. [x] Ms. [ ] Mrs. [ ] Miss

Firm:

State’s Attorney’s Office of Cook County, Illinois, Civil Actions Bureau

Address:

500 Richard J. Daley Center

City & State:

Chicago, Illinois

Zip:

Phone

(312) 603-6934

Email: Jessica.Scheller@cookcountyil.gov

60602

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the name(s) of
the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
cc:

Jody D. Kimbrell

